<html>
<title> - COMBATING HOMEGROWN TERRORISM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                     COMBATING HOMEGROWN TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2017

                               __________

                           Serial No. 115-37

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-741 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>                        
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
                      Mike Howell, Senior Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Member
Justin Amash, Michigan               Val Butler Demings, Florida
Paul A. Gosar, Arizona               Peter Welch, Vermont
Virginia Foxx, North Carolina        Mark DeSaulnier, California
Jody B. Hice, Georgia                Jimmy Gomez, California
James Comer, Kentucky                Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2017....................................     1

                               WITNESSES

Mr. Kerry Sleeper, Assistant Director, Office of Partner 
  Engagement, Federal Bureau of Investigation
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. George Selim, Director, Office for Community Partnerships, 
  Department of Homeland Security
    Oral Statement...............................................    11
    Written Statement............................................    13
Ms. Raheel Raza, President, Muslims Facing Tomorrow
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. Adnan Kifayat, Director, Global Security Ventures, Gen Next 
  Foundation
    Oral Statement...............................................    33
    Written Statement............................................    35
Mr. Seamus Hughes, Deputy Director, Program on Extremism, George 
  Washington University
    Oral Statement...............................................    39
    Written Statement............................................    41

                                APPENDIX

Opening Statement of Chairman Ron DeSantis.......................    64
April 2017 GAO report titled, ``Countering Violent Extremism: 
  Actions Needed to Define Strategy and Assess Progress of 
  Federal Efforts,'' submitted for the record by Chairman 
  DeSantis.......................................................    70
July 26, 2017, letter from the Muslim Justice League of Boston, 
  submitted for the record by Ranking Member Lynch...............    71
July 27, 2017, letter from the Brennan Center for Justice, 
  submitted for the record by Ranking Member Lynch...............    79
DHS response to GAO report, submitted for the record by Mr. Selim    80
July 28, 2017, letter from the Anti-Defamation League, submitted 
  for the record by Ranking Member Lynch.........................    84

 
                     COMBATING HOMEGROWN TERRORISM

                              ----------                              


                        Thursday, July 27, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:42 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Gosar, Hice, 
Comer, Lynch, Welch, Demings, and DeSaulnier.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    In the words of DHS Secretary John Kelly, the United States 
is experiencing a, quote, ``unprecedented spike in homegrown 
terrorism.'' Currently, the FBI has open terrorism 
investigations in all 50 States. As of June 2017, the U.S. 
Government has charged 128 individuals with offenses related to 
the Islamic State over the last three years. Radical Islamic 
extremism is the primary driver of this problem and deserves 
the government's immediate attention.
    In recent years, the Federal Government has sought to 
combat this problem under the guise of a program called 
Countering Violent Extremism, or CVE. Three cities were used to 
conduct pilot programs: Los Angeles, Boston, and Minneapolis. 
Minneapolis is a particularly troublesome area, as it is a 
major center of Islamic terrorist activity. The region is home 
to the largest concentration of Somali refugees and has been 
the epicenter for domestic radicalization.
    From 2007 to 2015, over 20 Somali-Americans are known to 
have left Minnesota to join the al-Shabaab terrorist 
organization in Somalia. Over the last three years, Federal 
prosecutors have charged 13 individuals from Minnesota for 
connections to the Islamic State. Minnesota is second only to 
New York, which has four times as many residents, in number of 
ISIS terrorists charged. The terrorist problem in Minnesota led 
former U.S. Senator Norm Coleman to warn that the State is in 
danger of becoming, quote, ``the land of 10,000 terrorists.''
    Now, as the chairman of this subcommittee, I visited 
Minneapolis last December to meet with Federal and local law 
enforcement officials and community groups who were involved in 
the Countering Violent Extremism program. The area is obviously 
a ground zero for recruitment.
    Now, I invited Richard Thornton, the FBI's special agent in 
charge of the Minneapolis Division, to testify today about the 
problems our country is facing in that part of the country, but 
he is not here. Instead, the Bureau has sent Assistant Director 
Kerry Sleeper from headquarters with the expectation he can 
speak to Thornton's specific experience and interactions in 
Minneapolis. I look forward to hearing specifics about FBI's 
efforts in Minneapolis so the committee can evaluate the 
effectiveness of this CVE approach.
    Our law enforcement and intelligence community have their 
hands full with preventing radicalization and interdicting 
terrorists before they commit acts in the name of their 
ideology. The Department of Homeland Security leads the 
government's Countering Violent Extremism efforts. CVE refers 
to ``proactive actions to counter efforts by extremists to 
recruit, radicalize, and mobilize followers to violence.''
    Currently, the Department still follows the Obama-era 
policies related to CVE. And guidance developed during the 
Obama administration specifically limits any intelligence or 
law enforcement investigative activity through CVE. By leaving 
this information on the table, CVE efforts are potentially 
missing opportunities to identify and disrupt terrorist plots. 
Obama-era guidance also fails to properly identify the threat 
of radical Islamic ideology. The nearly 4,000-word October 2016 
CVE strategy does not even mention radical Islamic terrorism at 
all. The Obama administration's strategy also relied heavily on 
non-governmental organizations with vague and immeasurable 
goals.
    One week before President Trump's inauguration, former DHS 
Secretary Jeh Johnson announced the grant recipients of $10 
million appropriated by Congress for CVE efforts. The 
selections reflect a preference for working through community-
based organizations, some with questionable programs and 
immeasurable goals. For example, the Obama administration 
selected for funding an organization who suggested countering 
violent extremism through, quote, ``collaborative songwriting, 
multimedia, and performance.'' Another suggested hiring college 
students to make video games. This was not a serious attempt to 
stop the flow of foreign fighters to ISIS.
    After President Trump took office, DHS froze the $10 
million in grants, reviewed the organizations, and announced 
they were removing 11 Obama-era grant recipients but adding six 
new ones. A committee review of the organizations indicates a 
preference for law enforcement organizations over community-
based organizations.
    Now, despite this step, some of the law enforcement 
organizations designated for funding have questionable agendas. 
For example, the city of Houston's application relied on so-
called community experts with vocally partisan and anti-Israel 
agendas. The city of Denver submitted an application that 
prioritized an agenda unrelated to CVE, suggesting working 
through organizations such as Black Lives Matter.
    The Committee requested the applications of all grant 
recipients to determine what taxpayer dollars were funding, but 
DHS has still not produced these applications. The committee 
requested a briefing on the rationale for the selection of the 
grant recipients, but DHS refused.
    Today, the subcommittee seeks to understand what this 
administration's policy is for countering violent extremism. 
According to DHS, this policy is currently under review, and 
DHS has declined to share any details about this process, 
including when this review is supposed to be complete and which 
organizations are participating. For Congress' immediate 
purposes, we must determine what is driving DHS's agenda: the 
assumptions of the Obama era about countering this threat or 
the President's pledge to put political correctness aside and 
defeat the Islamic State at home and abroad.
    We will question witnesses on whether the FBI and DHS are 
properly vetting organizations and individuals who participate 
in the program. We will also hear from non-governmental 
witnesses on the role of the private sector in CVE efforts and 
the scope of violent extremism problem facing the United 
States.
    I thank the witnesses for their attendance and look forward 
to their testimony.
    Mr. DeSantis. And I now recognize the ranking member of the 
subcommittee, Mr. Lynch, for his opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. I want to, in advance, 
thank the witnesses for their willingness to help this 
committee with its work.
    I would like to thank you for holding this hearing, Mr. 
Chairman, to reexamine our efforts to address violent extremism 
and terrorist radicalization. I would also like to again thank 
the witnesses here involved, DHS and FBI especially. I know 
that there was some back and forth about getting witnesses to 
come forward. I am glad that we were able to resolve that.
    The recapture of the city of Mosul by Iraqi forces earlier 
this month marked a significant development in the U.S.-led 
global coalition effort to degrade and destroy ISIS. The loss 
of Iraq's second-largest city, coupled with ongoing advances by 
coalition-backed Syrian rebels in the self-declared ISIS 
capital of Raqqa in eastern Syria are the most recent 
indicators of the continuing loss of geographic territory by 
the terrorist organization.
    According to global data monitoring company IHS Market, 
ISIS currently controls an estimated 14,000 square miles, an 
area roughly the size of Maryland. That is a 60 percent 
decrease from January of 2015. The terrorist group has also 
experienced a corresponding loss in annual revenue by about 50 
percent.
    However, battlefield losses on the ground in Iraq and Syria 
do not signify the complete degradation or destruction of ISIS, 
as recently underscored by Lieutenant General Mike Nagata at 
the National Counterterrorism Center. ISIS' ability to absorb 
this damage and continue to direct, enable, or inspire 
terrorist attacks worldwide indicate that, and I quote, ``We do 
not fully appreciate the scale or strength of this 
phenomenon,'' close quote.
    In the midst of the coalition-backed defense in Raqqa, the 
New York Times reports that top ISIS operatives have already 
relocated to the town of Mayadin, Syria, about 100 miles away, 
along with the recruitment, financing, propaganda, and external 
operations functions necessary to facilitate and motivate 
attacks here in the West.
    Regrettably, we have already witnessed the devastation 
caused by ISIS-inspired ideology and the influence of extremist 
social media content here at home with the 2015 terrorist 
attack in San Bernardino, California, that resulted in 14 
deaths, and the 2016 terrorist attacks in Orlando, Florida, 
that killed 49 people. The program on Extremism at the George 
Washington University has identified at least 16 successful 
attacks perpetrated in the United States alone since ISIS 
announced the so-called caliphate in 2014. The majority of the 
attackers, including Orlando shooter Omar Mateen, openly 
pledged their allegiance to ISIS.
    In light of the continuing national security threat posed 
by terrorist-related attacks, we must work on a bipartisan 
basis to conduct robust oversight of Federal efforts to combat 
violent extremism and maximize our ability to mitigate the 
threat of radicalization based on fact.
    As highlighted by the Independent Government Accounting 
Office just this month in its report on ``Countering ISIS and 
its effect,'' and I again quote, ``The Federal Government does 
not have a cohesive strategy or process for assessing the 
countering violent extremism effort,'' close quote. Moreover, 
programs designed to counter violent extremism at the Federal 
level have lacked a clear mission and objective, receiving 
insecure or inadequate funding and have failed to reflect 
meaningful and collaborative Muslim community engagement and 
input.
    In 2014, the Obama administration announced the 
establishment of key pilot programs in Minneapolis, Los 
Angeles, and my own city of Boston designed by the Department 
of Justice, the Department of Homeland Security, and the 
National Counterterrorism Center to counter violent extremism 
and stop radicalization through community-based outreach and 
education. The greater Boston region was selected as a pilot 
area as a result of a preexisting collaboration between law 
enforcement, nongovernmental organizations, and local 
communities, including the Muslim community. In fact, President 
Obama recognized Boston as one of the 10 cities where local 
elected officials, law enforcement, faith organizations, youth 
groups, and others have already worked together to achieve 
marked improvement in community policing.
    In the New England area, local Muslim community leaders and 
organizations occupy a strategic role to prevent online 
radicalization and other forms of terrorist recruitment and 
promote community engagement. The Islamic Center of New 
England, which is in my district in the city of Quincy, has 
sought to develop a faith-based curriculum for young people 
that educates them on the prevalence of misinformation on the 
internet and particularly social media, while reinforcing 
positive Islamic values.
    In addition, Imam Khalid Nasr of the Quincy Mosque has 
sought to increase community outreach and interaction through 
open houses designed to afford all members of the community the 
opportunity to visit the mosque and meet with their Muslim 
neighbors, especially during Muslim holidays.
    Since the inception of the regional pilot program, the 
Federal Countering Violent Extremism program has expanded to 
include a grant program authorized by Congress to assist 
States, localities, and nonprofit organizations in preventing 
terrorist recruitment and radicalization. As announced by 
Secretary of Homeland Security General John Kelly in June of 
2017, the agency awarded 26 grants totaling $10 million to 
organizations dedicated to securing our communities and 
preventing terrorism--the list of grants, including an 
approximate $485,000 to the Boston Police Foundation, a 
nonprofit organization that works with the Boston Police to 
implement innovative youth outreach programs. Unfortunately, 
the current administration has frozen this $10 million in 
funding in its fiscal year 2018 budget, proposing zeroing out 
the $50 million for Countering Violent Extremism program 
altogether.
    Rather than weakening our effort to combat violent 
extremism, we have to work together to identify what works and 
what additional steps we must take to improve collaboration and 
cultivate a solid relationship of mutual respect and deeper 
understanding between law enforcement and local communities 
based on a shared commitment, and that includes the Muslim 
communities--that is based on a shared commitment to preventing 
radicalization and recruitment.
    To this end, I look forward to today's hearing, and I yield 
back the balance of my time.
    Mr. DeSantis. Thank you.
    I will hold the record open for five legislative days for 
any members who would like to submit a written statement.
    We will now recognize our panel of witnesses.
    I am pleased to welcome Mr. Kerry Sleeper, assistant 
director, Office of Partner Engagement, Federal Bureau of 
Investigation; Mr. George Selim, director of the Office of 
Community Partnerships, Department of Homeland Security; Ms. 
Raheel Raza, president of Muslims Facing Tomorrow; Mr. Adnan 
Kifayat, director, Global Security Ventures, Gen Next 
Foundation; and Mr. Seamus Hughes, deputy director of the 
Program on Extremism from the George Washington University.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you can please rise and raise your 
right hand.
    [Witnesses sworn.]
    Mr. DeSantis. Okay. Thank you. Please be seated. All 
witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made part of the record.
    And with that, Mr. Sleeper, you are up for five minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF KERRY SLEEPER

    Mr. Sleeper. Good afternoon, Chairman DeSantis, Ranking 
Member Lynch, and members of the subcommittee. Thank you for 
the opportunity to appear before you today to discuss the 
threat of homegrown violent extremism. My name is Kerry 
Sleeper. I'm assistant director with the FBI in charge of our 
Office of Partner Engagement.
    The FBI utilizes a comprehensive violence reduction 
strategy, which focuses on all pathways to violence but is not 
limited to this sole focus of homegrown violent extremism. Our 
violence reduction strategy is primarily composed of prevention 
and intervention lines of effort.
    In the area of prevention, the FBI has a long history of 
engagement in outreach and education initiatives and continues 
this effort as we identify and adapt to current trends and 
threats. In collaboration with our State and local partners, 
the FBI has historically been very successful in outreach 
programs designed to reach certain communities who are at a 
greater risk for radicalization. For example, FBI Minneapolis 
served as a pilot program for the Bureau immediately after 9/11 
when their executive management regularly hosted focus group 
meetings with specific audiences such as Somali elders in order 
to address their concerns and needs.
    Some of our popular outreach programs that have a positive 
impact on our community relationships are the Campus Liaison 
Initiative, the Private Sector Liaison, the Correction 
Initiative, the FBI Citizens Academy, and the Junior G Man 
program. These efforts are managed by our division outreach 
coordinators in conjunction with our JTTFs and local partners.
    Additionally, the vision outreach coordinators assess the 
needs of their individual community groups and develop specific 
programming tailed to integrated community and law enforcement 
goals to mitigate local risk factors for violence.
    The FBI also focuses on education for different catalysts 
for radicalization designed to help the public increase an 
awareness of that radicalization. These public--these products 
are widely disseminated to the law enforcement and community 
partners for further engagement with the public and demand 
continues to increase for additional products.
    The FBI created a website ``Don't be a puppet; pull back 
the curtain on violent extremism'' specifically designed for 
the public and for use by educators and community leaders and 
organizations for school-age children. Visits to this website 
average nearly 7,400 visits a month.
    Also, in reaching out to communities, the FBI has produced 
other media-based products, including preventing violent 
extremism in school, recognizing pathways to violent extremism, 
campus attacks, targeted violence affecting institutions of 
higher education, and workplace violence issues and response. 
We have also produced and distributed documentaries A 
Revolutionary Act, Redemption, and Active Shooter: Managing the 
Mass Casualty Threat.
    I left with the members to be distributed a copy of A 
Revolutionary Act. This was a video that we created for State 
and local law enforcement. It documented the murder of two Las 
Vegas Metro PD officers by domestic terrorists two years ago. 
The reception by the State and local law enforcement community 
has been very, very strong. It's an example of the type of work 
we do for the law enforcement agencies to then engage with 
their communities and have discussions.
    In our intervention area, the FBI is closely coordinating 
with our State and local partners to best meet the needs of 
their communities. The FBI's Office of Partner Engagement 
identified as a best practice used by police departments, the 
crisis intervention teams, and their partner multidisciplinary 
teams composed of community mental health and social welfare 
providers.
    The FBI's Office of Partner Engagement is currently 
initiating closer coordination with police department crisis 
intervention teams in order to develop a coordinated strategy 
to identify potential individuals appropriate for intervention.
    The FBI also conducted a pilot program to assess the 
viability of off-ramping. The idea behind off-ramping subjects 
is to take them off the path of violence before they commit a 
crime. This process must be completed with the utmost attention 
to detail, sensitivity to law enforcement and community 
partners, and a forward-leaning approach. The FBI's pilot 
program indicated the best results would be achieved by close 
collaboration with our State and local law enforcement and 
government partners. The FBI continues to work with these 
partners to form a cohesive and beneficial plan to implement 
off-ramping efforts and to better serve our communities.
    In conclusion, I am pleased to be here today to talk to you 
about the FBI's work with our State and local partners in 
combating homegrown violent extremism. Thank you for this 
opportunity to testify, and I look forward to your questions.
    [Prepared statement of Mr. Kerry Sleeper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Selim, you are up for five minutes.

                   STATEMENT OF GEORGE SELIM

    Mr. Selim. Good afternoon, Chairman DeSantis, Ranking 
Member Lynch, other members of the committee. Thank you for the 
opportunity to be here today. My name is George Selim, and I 
lead the Office for Community Partnerships at the Department of 
Homeland Security, and I also serve as the director of the 
Interagency Countering Violent Extremism Task Force, which is 
tasked to manage the synchronization and integration of a 
whole-of-government effort to empower local partners to prevent 
violent extremism here in the United States.
    I have built on my nearly 12 years of homeland security-
related work experience in the executive branch, including the 
Department of Justice, most recently DHS headquarters, as well 
as the National Security Council to further the Department's 
and the Interagency's key priorities on fostering 
relationships, promoting trust, and finding innovative ways to 
expand the toolbox for both law enforcement officials and civil 
leaders to prevent and intervene in the process of 
radicalization.
    Terrorism prevention programs complement traditional 
counterterrorism investigative and prosecutorial processes. 
Prevention focuses on disrupting the beliefs of violent 
extremists and their will to act on those beliefs through 
criminal or other violent actions. Community-driven prevention 
programs are designed to mitigate recruitment and interdict 
individuals radicalizing to violence earlier in the process, 
and that way, thus contributing to our collective homeland 
security.
    Historically, my office, the Office of Community 
Partnerships, has pursued a number of activities to advance the 
terrorism prevention mission. We educate our communities, 
working with departments and agencies to provide community 
awareness briefings that demonstrably increase the 
understanding of how terrorist groups recruit and radicalize 
and thus incite to violence.
    We have engaged with community stakeholders around the 
United States to open doors to dialogue and build trust. My 
office has deployed field staff to more than a dozen cities 
nationwide to bolster engagement with and between governmental 
organizations, nongovernmental organizations, not the least of 
which are our State and local law enforcement partners, as well 
as community and civic groups.
    Additionally, we have engaged young people through the 
internationally recognized public-private partnership titled 
the Peer-to-Peer Challenging Extremism Competition, which was 
featured last week in the New York Times, which its aim is to 
challenge teams of students from colleges and universities both 
across the United States and abroad to develop and implement 
social media programs targeting the narratives and online 
recruiters of violent extremism.
    In 2015, the Department of Homeland Security worked with 
Congress to secure a first-of-its-kind funding for the CVE 
grant program, which the chairman referred to earlier, that 
supports communities seeking to do more to combat the ongoing 
threat of terrorism here in the homeland. Six months later, the 
Department of Homeland Security released our Notice of Funding 
Opportunity for this grant program. The application period 
closed last September, and almost 200 applications received 
were reviewed by a combination of experts to evaluate the 
strengths and merits of each individual application.
    After a leadership review panel reviewed the scoring 
results in the five focus areas and ensured important 
programmatic soundness was met such as the optimized use of 
funds to avoid duplication and other similar projects. After a 
deliberate process, then-Secretary Johnson made a determination 
on funding options presented to him and publicly announced 
grants on January 13 of 2017. My office anticipated 
approximately 30 days later from the announcement to make the 
formal award offers and allow time to finalize many of the 
administrative tasks associated with the grants.
    After the inauguration of President Trump on January 20, 
the new DHS leadership asked to put a pause on the program, 
reviewing the entire effort, alongside numerous other efforts 
at the Department of Homeland Security. What I can tell you 
today is that the review was comprehensive. New DHS leadership 
imagined--examined the goals of the program, the processes, and 
how the grant program would measure its own efficacy.
    As a result of the review, and consistent with the 
authorizes granted to the Secretary and as outlined in the 
Notice of Funding, the Department considered three additional 
factors among the pool of applicants, including the applicant 
or proposal's level of engagement with law enforcement and the 
community, the proposal's likelihood for it to be highly 
effective, and the proposal's level of resource dedication or 
long-term sustainability. In the end, the application of these 
factors resulted in some changes in the list of intended 
awardees.
    Moving forward, the 26 projects funded by the Countering 
Violent Extremism grant program are designed to establish a 
solid foundation for prevention of terrorism in our American 
communities. The grants support a full range of terrorism 
prevention activities, including awareness campaigns, 
engagement, trust-building, intervention efforts, and direct 
opposition of terrorism narratives these days. The awards span 
communities across the country and focus on all forms of 
violent extremism.
    In conclusion, our team recognizes that now comes the hard 
part. We are working with all 26 project teams to ensure that 
the awardees detail their progress towards their goals through 
ongoing and rigorous monitoring. In doing so, my office will 
identify promising practices and tools to keep extremists from 
luring more impressionable people towards terrorism. We will 
add to the dataset on existing terrorism prevention programs, 
and we will share the result from these grants publicly so that 
other communities and the public and you, the committee, can 
learn firsthand what works and what does not in the field of 
terrorism prevention. We are grateful for bipartisan support 
from Congress on this program to date and look forward to 
keeping you informed on our progress and ensure that it lives 
up to the Congress' standards.
    Thank you, and I look forward to your questions.
    [Prepared statement of George Selim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Ms. Raza, you are up for five minutes.

                    STATEMENT OF RAHEEL RAZA

    Ms. Raza. [Speaking foreign language.] I begin in the name 
of God, most beneficial, most merciful.
    Mr. Chairman, distinguished members of the committee, thank 
you for the opportunity to deliver this testimony.
    My name is Raheel Raza. I'm a practicing Muslim, president 
of Muslims Facing Tomorrow, founding member of the Muslim 
Reform Movement, and advisory board member of the Clarion 
Project. I've engaged in dialogue about these issues in the 
U.S., at the U.N., and in the Canadian and U.K. Parliaments for 
over two decades. I have four main recommendations:
    1. Shift government focus and efforts to tackle the 
Islamist ideology.
    2. Designate the Muslim Brotherhood as an entity that aids 
and abets terrorism.
    3. Prevent funding of U.S. educational institutions and 
mosques by foreign extremist sources.
    4. Invite voices of reform-minded Muslims to also be heard 
in these esteemed chambers.
    Firstly, there is a serious error at the heart of the 
countering violent extremism policy. We must confront radicals 
before they become violent. Before World War II, Nazism was an 
ideology expressed in Mein Kampf. Before two million Chinese 
died in the Cultural Revolution, ideas were written down in a 
Little Red Book. And in 1928, another ideology appeared with 
the founding of the Muslim Brotherhood, which seeks a 
totalitarian system of government and forced implementation of 
Sharia law, the trickling effects of which we don't want to see 
in the United States.
    This ideology fuels ISIS and al-Qaida, subjugates women, 
executes homosexuals, kills Christians, and inspires some 
American Muslims to commit acts of terror. The Clarion 
Project's short film By the Numbers puts numbers to these 
assertions based on Pew research. Twenty-seven percent or 237 
million Muslims believe nonbelievers should be executed, and 26 
percent of young American Muslims believe suicide bombings 
against non-Muslims can be justified. Fortunately, most Muslims 
don't hold this radical ideology, but hundreds of millions do.
    Some claim ideology is not a clear predictor of terrorism. 
They are dead-wrong. A 2016 study traced the path of 100 
violent jihadists. Fifty-one percent of them began their 
journey in nonviolent Islamist movements. By the time an 
extremist becomes violent, it's too late. As such, the U.S. 
must defeat, humiliate, destroy, and discredit this poisonous 
radical ideology of Islamism stemming from the Wahhabi Salafi 
ideology, Khomeinism, and the Muslim Brotherhood, which brings 
me to recommendation number two, designate the Muslim 
Brotherhood as an organization that aids and abets terrorism.
    As I've already explained, the Muslim Brotherhood seeks to 
establish a worldwide Islamic State and build a new world 
civilization based on Sharia law. In fact, Russia, Syria, 
Egypt, Saudi Arabia, Bahrain, and the United Arab Emirates have 
all listed the Muslim Brotherhood as a terrorist organization. 
The U.S. must follow suit.
    Next, number three, remove foreign extremist funding from 
American campuses and mosques. Saudi Arabia is thought to have 
spent $70-100 billion to disseminate their intolerant version 
of Islam worldwide. Saudi Arabia gave $20 million to Georgetown 
and $20 million to Harvard. A Saudi billionaire named as a 
defendant in a 9/11 lawsuit donated $10 million to establish a 
Center of Islamic Law and Civilization at Yale. Iran is also 
complicit in funding Shia mosques, Islamic schools, and 
organizations. We should not have Iran or Saudi Arabia teaching 
their version of Islam to our youth.
    Final recommendation number four, a seat at the table; 
listen to martyred Muslims. Mohamed Elibiary helped craft the 
Countering Violent Extremism, the CVE program, yet he called 
for the political integration of mainstream Islamists like the 
Muslim Brotherhood. Also, CAIR, the Council on American-Islamic 
Relations, is a radical group which claims to speak for 
American Muslims. CAIR does not speak for me or most Muslims. 
CAIR was designated as a terrorist group by the United Arab 
Emirates, and its L.A. director called the work of this 
committee a myth.
    CAIR's recommendation to the House Committee on Homeland 
Security was to refuse a legitimizing platform to organizations 
and individuals they deem ``Islamophobic.'' Let me clarify that 
anti-Muslim bigotry is real, but that's not a permission slip 
to call every dissenting voice an Islamophobe. I've raised two 
sons with Muslim values while keeping them from radical views 
and will do the same for my four grandchildren. Does educating 
youth about the dangers of radicalization make one an 
Islamophobe? Of course not. These labels keep us from critical 
debate such as the one we are having now and stops the Muslim 
communities from becoming pluralistic, tolerant, embracing of 
democracy, freedoms, and liberties, and accepting of all paths 
and people.
    On behalf of Muslims Facing Tomorrow, reform-minded 
Muslims, and the Clarion Project, thank you for letting our 
voices be heard.
    [Prepared statement of Raheel Raza follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    I now recognize Mr. Adnan Kifayat for five minutes.

                   STATEMENT OF ADNAN KIFAYAT

    Mr. Kifayat. Thank you, Mr. Chairman, Ranking Member, and 
members of the subcommittee. Thank you for this opportunity to 
speak before you on behalf of Gen Next. My name is Adnan 
Kifayat. I'm the head of global security for Gen Next Ventures.
    Gen Next Foundation leverages a venture philanthropy model 
to help private sector individuals use their talents, 
knowledge, and resources to solve big challenges, and 
countering violent extremism in the homeland is one of our core 
areas of focus.
    I come here before you as a private citizen, but before I 
became a private citizen again, I served in government in a 
number of roles at the Treasury Department, the State 
Department, and the White House for both Democratic and 
Republican administrations. I first became involved in 
countering violent extremism work when I was at the National 
Security Council under President Bush. Back then, we used to 
call it the ``War of Ideas.''It is now commonly referred to as 
countering violent extremism, but we must always recognize that 
in the 15 years since 9/11, we have learned a great deal about 
the enemy, about what the enemy uses, and how the enemy 
radicalizes, recruits, and activates would-be terrorists.
    When I served in government, I had always hoped and 
sometimes daydreamt that there would be outside entities in the 
private sector that were keeping pace with the threat that 
we're finding real-world solutions to this menace. These 
entities could do what government alone was not equipped to do. 
They could innovate, they could keep pace with the internet, 
they could use new and sophisticated technologies, and they 
could take risks that sometimes government is unable to take.
    Today, there are small but committed groups of people, 
including Gen Next, who are finding ways to rally American 
ingenuity and creativity to counter homegrown terrorism. There 
are strong and powerful growing voices in the private sector 
that are echoing across our country, and I urge you to listen 
to those voices and the solutions that they are finding.
    Five years ago, Gen Next Foundation, Google Ideas, and the 
Institute for Strategic Dialogue launched the first-ever global 
network of former extremists called the Against Violent 
Extremism network. AVE, which now numbers 470 members, uses the 
voices of former extremists both online and offline to dissuade 
youth all over the world from being radicalized and recruited 
by groups like ISIS and al-Qaida. Almost 1,000 online 
interventions have taken place and hundreds of 
deradicalizations through person-to-person engagement have 
occurred.
    Since our initial investment, multinational corporations, 
international institutions, and foundations have all helped 
scale AVE's footprint because it works. Last year, Gen Next 
helped launch the first-even online effort to redirect at-risk 
youth searching for in that terrorist groups like ISIS and al-
Qaida put out there towards content that is nonviolent and non-
extremist. By using marketing and advertising techniques, our 
partnership with Google Jigsaw, and experts at Moonshot CVE, 
known as the Redirect Method, is leveling the playing field 
online and challenging the narrative of the terrorists.
    There are many other examples of the private sector 
organizing, Mr. Chairman. I have submitted those in the written 
testimony for additional study. Last year, I co-chaired the 
Department of Homeland Security's Advisory Subcommittee report 
on countering violent extremism, which had strong bipartisan 
support. It detailed a national blueprint for partnering with 
city leaders, mayors, local leaders, as well as the private 
sector.
    In today's complex maze of networks, we can't just pay lip 
service to partnering with people outside of Washington. We 
have to find concrete ways to do so. Some of these efforts will 
require resources like money, talent, and access to technology 
or just convening. While Gen Next Foundation serves as a 
convener and incubator of new solutions in the private sector, 
this space is by no means saturated. As an example, the 
government has done with the defense and intelligence 
communities through organizations like the Defense Advanced 
Research Projects Agency, DARPA, and In-Q-Tel to bridge the 
divide between public and private sectors, provide risk 
capital, eliminate some unnecessary and slow processes, develop 
key performance indicators and measurements that work, and 
potentially reduce some of the fierce politicization of this 
issue so that we can get to finding solutions.
    We know today that to be lured by Islamist or jihadist 
ideologist, one can be rich or poor, boy or girl, religiously 
observant or not. The threat is varied, and we have to find 
varied solutions to this threat.
    The examples I've shared with you, AVE and Redirect are 
just two examples. We must work together and welcome innovation 
and risk-taking in the private sector if we are to truly find 
solutions to counter homegrown extremism that leads to 
terrorism.
    Mr. Chairman and ranking member and members of the 
subcommittee, today, we must fight the War of Ideas radically 
different than we did 15 years ago. There are solutions out 
there today, and there are solutions waiting to be found. Thank 
you very much.
    [Prepared statement of Adnan Kifayat follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Hughes, you are recognized for five minutes.

                   STATEMENT OF SEAMUS HUGHES

    Mr. Hughes. Chairman, Ranking Member, distinguished members 
of the committee, it is a privilege to be invited to speak here 
on the threat of homegrown terrorism and efforts to prevent it.
    As the chairman noted, homegrown terrorism inspired by 
groups like ISIS has been a persistent threat in the U.S. The 
FBI has reported some thousand active investigations in all 50 
States. Since March 2014, 120 individuals have been charged 
with terrorism-related activities in connection to ISIS. A near 
majority were accused of attempting to travel or successfully 
traveling to the so-called caliphate. Nearly 30 percent were 
accused of domestic plotting.
    These individuals represent a very diverse group. Their 
backgrounds vary. There's not a typical profile of an ISIS 
recruit. They're old, they're young, they're rich, they're 
poor. It runs the spectrum.
    A careful review of the cases points to a mobilization of 
individuals and not necessarily a widespread community-level 
phenomenon. It is homegrown terroism in the truest form of the 
word. They are born and raised here. The vast majority are U.S. 
citizens or legal permanent residents.
    While considerably smaller than other Western countries, 
ISIS mobilization in the United States is unprecedented. The 
backbone of the response has been through traditional 
counterterrorism approaches. However, they must be augmented 
with other non-law enforcement efforts. As such, the U.S. must 
develop a more robust, transparent, and effective domestic 
prevention program.
    The U.S.'s domestic Countering Violent Extremism or CVE 
program efforts can best be understood in a series of fits and 
starts. In 2011, the U.S. Government released their first 
domestic CVE strategy. It was broken up in three parts: first, 
enhanced engagement with communities; second, build expertise 
with State and local officials; and three, counter extremist 
propaganda. The strategy was explicit in acknowledging that no 
new resources would be devoted to the issue. Local officials, 
particularly U.S. Attorneys' Offices, were directed to use 
existing funding. The Federal Government provided guidance 
where needed. This new approach was introduced to hesitant 
local officials and community partners, which struggled to 
understand the intricacies of radicalization and recruitment.
    As a result of a lack of an explicit definition of CVE and 
direction for CVE, it became a catchall phrase for programming 
from broad-based engagement on non-terrorism-related 
programming to more direct one-on-one intervention of 
radicalized individuals. Lacking dedicated funding and a 
focused resource, government officials struggled to complete 
the strategy's goals and objectives.
    It is with that backdrop that the previous administration 
refocused their efforts on three pilot cities. Minneapolis 
focused largely on societal-level issues or what they saw as 
societal-level issues, Boston on individualized intervention 
programs, and Los Angeles primarily on community engagement.
    Following the completion of the pilot program, the U.S. 
Government created a CVE Task Force. This interagency group, 
with a rotating leadership from DHS and DOJ, would be comprised 
of detailees from various different agencies, a hub of CVE 
activity.
    There are a few challenges to quickly note. Radicalization 
is not a linear process. Humans by their very nature are 
complex. We float in and out of our extreme. There's not a 
step-by-step guide for why individuals join terrorist 
organizations, while others with similar experiences do not. 
Conversely, the radicalization disengagement does not adhere to 
a straight-line path. Developing CVE programs must not fall in 
a trap of one-size-fits-all.
    The administration's proposed budget significantly curtails 
CVE funding. While the continuation of DHS grants or more 
focused continuation of DHS grants is a step in the right 
direction, the ability to scale up these projects without an 
influx of new grant funding is doubtful. Moreover, the proposed 
budget cuts to reduce the number of employees at DHS and other 
agencies that serve the CVE task force may limit our innovation 
in the future.
    CVE efforts in the previous administration and the current 
one has largely focused on one form of extremism. The previous 
administration, while not explicit in its public messaging but 
clearly in its implementation, focused nearly entirely on 
countering ISIS-inspired terrorism. By nearly all outward 
accounts, the current administration also indicates this 
singular focus. Of course, there should be a prioritization of 
resources, but CVE programs would do well to concentrate not 
only on the threat posed by individuals like Omar Mateen but 
also those by the Dylann Roofs of the world.
    Domestic CVE is in a tenuous state. Decisions by government 
and community partners in the coming months will determine 
whether CVE is truly a viable option. CVE is a delicate tool, 
if properly implemented, can help sway young men and women away 
from radicalization and violence. And families that I met with 
in Minneapolis, in Boston, individuals who have dealt with 
loved ones who've joined terrorist organizations and are 
grappling with these questions, we haven't provided them any 
form of support from the Federal Government or local effort. We 
need to step up and provide this. And by the way, it's also an 
important goal to help adjust resources for the Federal 
Government so the FBI can focus on more immediate threats, 
while communities and non-governmental partners can focus on 
other things.
    Thank you, and I welcome your questions.
    [Prepared statement of Seamus Hughes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Well, thanks for the witnesses. The chair now 
recognizes himself for five minutes.
    Mr. Selim, we have looked at some of these pilot programs, 
specifically Minnesota. How do you at the Department evaluate 
the effectiveness of the CVE pilot program in Minneapolis?
    Mr. Selim. Chairman DeSantis, thanks for the question, and 
again, thanks for having us here today.
    I think there have been a number of ways that we can assess 
the pilot program in Minneapolis. Overall, I would assess that 
it has been successful in a number of different categories. 
It's validated the assumptions that at the local level 
solutions to CVE programs need to be constructed.
    Second, it's validated that working by, with, and through 
State and local law enforcement, municipal officials, and 
councilmembers and individuals that hold some type of position, 
having them act as some type of facilitator or convener is a 
positive step forward and brings communities closer together.
    And three, a number of both governmental and 
nongovernmental organizations have validated that they want to 
participate in these efforts, that they would like to 
participate in programming related to preventing and 
intervening in the process of radicalization but lack the 
resources to do so. And in the volume of applications that we 
received for the grant program, we've seen an overwhelming 
response from the Twin Cities area, and fortunately, we've been 
able to act on a number of those very strong applications and 
make some awards in that place.
    Mr. DeSantis. I would note for the record, and I ask 
unanimous consent to submit a GAO report. GAO disagrees with 
that. They say there is no cohesive process for measuring 
outcomes. So, I ask unanimous consent that this be added to the 
record.
    Mr. DeSantis. So, let me ask you this. There was a major 
trial in Minnesota, I think 13 guys for material support to 
ISIS, and the U.S. Attorney's Office did a good job, FBI, but 
is that a success of CVE or is that a failure of CVE when 
something like that happens?
    Mr. Selim. I think that's serve--that's not CVE. A 
counterterrorism investigation and arrest and a prosecution --
--
    Mr. DeSantis. So, then, basically, that would mean that the 
CVE community-based programs were obviously not successful at 
steering those individuals away from a violent ideology, 
correct?
    Mr. Selim. I would say that the CVE-related programs and 
the small amount that are being implemented across the country 
are just one facet of the broader counterterrorism approach. 
So, to the extent that a CVE program in one city can help bring 
in a tip, can help contribute to an intervention for an 
individual, that's a positive contribution, but it's not a 
catchall. It's just one piece in our broader homeland security 
strategy.
    Mr. DeSantis. Let me ask Mr. Sleeper in terms of the 
Minnesota--we were able to meet with the folks at the FBI down 
there on the ground. I will ask you. The effectiveness of the 
community-based programs, has that been a gamechanger? It 
seemed to me when we were there, there were still significant 
threats that they were monitoring.
    Mr. Sleeper. Yes, sir. Thank you. And I spoke with SAC 
Thornton last evening prior to coming here. The challenge 
remains. The SAC would indicate that communication has improved 
between government authorities and the community, but it's 
still not what it should be in order to ensure an effective 
exchange of information to prevent individuals from either 
harming other people or harming themselves by traveling 
overseas. This is going to be a long-term commitment to 
ensuring that the community develops enough confidence to be 
able to keep the information flow going.
    Mr. DeSantis. One of the things that was a little 
surprising is the community there, the Somalis, is primarily a 
refugee community, but yet they are--particularly some of the 
problem people would travel back and forth. And so if they are 
coming as refugees, then why are they just going back and 
forth? It was a little odd to me that that would be something 
that would be okay. You would think if you are fleeing an area, 
you wouldn't want to just keep going back, but that seemed to 
be--I mean, I know a lot of these guys who were convicted, they 
were going back. They had government money they were using. I 
mean, it was really, really dispiriting to see.
    Mr. Sleeper. There are some examples, sir, of individuals 
that have traveled back, yes, sir, and returned.
    Mr. DeSantis. All right. The use of funds, let me ask Mr. 
Selim. I mean, we looked at some of these grants. For example, 
there was $160,000 to a group called Music in Common whose task 
was ``empowering diverse cultures and faiths to discover common 
ground through collaborative songwriting, multimedia, and 
performance.'' So, in terms of effectiveness, collaborative 
songwriting, is that an effective approach to warding off 
terrorism?
    Mr. Selim. Mr. Chairman, what I could say about that 
application in particular is that was not one of the ones that 
was awarded in June of 2017. I think you're referring to one of 
the earlier ----
    Mr. DeSantis. Right.
    Mr. Selim.--awards from January of 2017. What I can say 
conclusively--and I think I would echo some of the comments 
that Mr. Hughes made earlier--is radicalization is not a linear 
process. There are multiple ways that individuals in the United 
States and across the globe have been radicalized, and thus, 
the solution sets to preventing and intervening in the process 
of radicalization are equally diverse and multidisciplinary.
    Mr. DeSantis. I think that that is true, but I just--is 
this a good use of tax funds for this particular group? Was 
there any measurable success as a result of awarding this 
grant? Are there other groups which I would say are more fuzzy 
in terms of their approach--has there been documented success 
from there? Because we looked for it. It was hard for us to 
find it, and it is a concern.
    Mr. Selim. I understand your concern, Mr. Chairman. Here's 
the best way I can try to answer that.
    Mr. DeSantis. But, I guess--I mean, the fact that this 
group got dropped is probably an indication that it had not 
been having a lot of success, correct?
    Mr. Selim. Part of the reason that group and a number of 
others were dropped is because of the additional factors that 
Secretary Kelly and DHS leadership infused into the grant 
program and to--sorry.
    Mr. DeSantis. No, finish your thought.
    Mr. Selim. And to address your point on measurement and 
evaluation, looking at each and--each individual grant--grantee 
and program that we will be funding, overall, I guess I would 
summarize we're looking at readiness overall, and we're looking 
at readiness of preventing radicalization here in a couple 
different facets. The first is in this grant program are we 
raising awareness on the threat of radicalization and 
recruitment? Are we creating willingness within communities to 
engage with State, local, and municipal law enforcement? And 
third, are we demonstrating an increased level of capabilities 
for State, local, and nongovernmental actors to do something if 
radicalization and recruitment is detected?
    Overall, what this grant program is trying to do is up our 
readiness game and factors that we need to work on moving 
forward.
    Mr. DeSantis. Let me ask Ms. Raza. When you see something 
like the collaborative songwriting, you have been very clear 
about going after the ideology. I mean, is that the approach 
you think would be successful or are you arguing for more of a 
direct acknowledgement of what the threat is?
    Ms. Raza. Thank you for having me here, Mr. Chairman, and 
thank you for that question. Yes, I would say that the time has 
come to definitely have a more direct approach. With due 
respect to the songwriting project, I mean, ``fluff stuff'' and 
interfaith dialogue really hasn't led to much deradicalization 
and hasn't led to countering violent extremism. There need to 
be specific policies put into place that tackle the ideology, 
as I have mentioned in both my oral and written testimony.
    Mr. DeSantis. So in terms of the ideology, I notice the 
government manuals recently, they will not mention radical 
Islam or they don't use anything associated with the word 
Islam, but then when I look at people in the Middle East who 
are fighting this like General President el-Sisi of Egypt, I 
mean, he gave a speech in front of all those Islamic clerics, 
and he said, look, he is like, you know, I am a devout Muslim 
but we can't use the faith to be at war with other people. So, 
he seemed to view it as really a debate within Islam, and he 
wanted the nonviolent--which I think is the majority for sure--
to really carry the day, whereas I think the government view 
has been to just say this has nothing to do with Islam; all 
violent extremism is the same. It just seems like Sisi is 
confronting the ideological a little more directly. It seems 
like some of the government manuals, you know, they kind of 
dance around the core ideological point. Is that a fair 
description of the difference?
    Ms. Raza. Yes, it is, and thank you for bringing that up 
because this point has come up more than once that the word 
Islam is--radical ideology should not be used. As a practicing 
Muslim, let me point out that to separate Islamist ideology 
from the spiritual message of Islam is a very pro-Islamic thing 
to do. It's not about political correctness. There are people 
here in the West who are afraid to use the word Islamist 
ideology because they think that it is anti-Muslim. It is 
actually very pro-Muslim because it makes the ordinary masses 
of people understand the difference between the faith of Islam 
and an ideology, which is political in nature and which is evil 
in its agenda. And in order to fight that ideology, we have to 
name it. We have a mandate in our organization where we say you 
have to use the three E's, expose the problem, educate the 
masses, and then erase the problem.
    Mr. DeSantis. So, you mentioned designating the Brotherhood 
as a terrorist-supporting organization. If the U.S. Government 
did that and that preventing money from flowing to some of the 
domestic groups, do you think that that would help neuter some 
of the economic fuel for the extremist ideology?
    Ms. Raza. Yes, designating the Muslim Brotherhood as an 
organization that aids and abets terrorism definitely would be 
a step in the right direction, especially when other Muslim 
countries have already done this. And the--they fuel and feed 
the radical ideology that eventually leads to terrorism.
    Mr. DeSantis. For Adnan Kifayat, the good thing about the 
private sector what you are trying to do is you are not really 
burdened by some of the bureaucratic scriptures and you guys 
can kind of see things and react. So, you mention some of these 
online interventions that have been successful, so can you 
describe, what does that entail and how some of those have 
worked?
    Mr. Kifayat. Thank you, Mr. Chairman. Yes, so some of our 
online work right now is focused on really understanding the 
narratives and the content that groups like ISIS, al-Qaida, 
others put out there and the kinds of messages that they use to 
basically get people to go down those pathways. And what we're 
learning is geography, so where those searches are taking 
place, where that content is being consumed, potentially 
deploying some off-ramping, as has been talked about, some off-
ramping programs, hotlines in those geographies.
    Two, we've learned about--more about the complexity of the 
messaging, so it's everything from religious argument, as has 
been noted a number of times, to things like seeking adventure, 
things like protecting one's culture, protecting one's 
community. And understanding what those message points are is 
very helpful to us as we create content and repurpose content 
to push back against those messages.
    We've also learned, Mr. Chairman, that terrorists are not--
they don't start off by viewing beheading videos or the 
bloodiest or the most gruesome of the content. They actually 
start off by consuming what might appear to be mild content but 
has tinges of hate, tinges of hate, intolerance, and so forth. 
And so nipping it in the bud has been one lesson that we've 
learned.
    Mr. DeSantis. Great. I am over my time.
    I will recognize the ranking member, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Just for a threshold matter, I have a couple of documents 
that I would like to submit with unanimous consent. I have a 
letter here from the Muslim Justice League of Boston, and I 
have a letter as well from the Brennan Center for Justice 
addressed to you and I.
    Mr. DeSantis. And you would ask unanimous consent that they 
----
    Mr. Lynch. I do.
    Mr. DeSantis.--be entered into the record. Without 
objection.
    Mr. Lynch. Thank you. Thank you, Mr. Chairman.
    Mr. Lynch. One of the difficulties here that I know my 
colleagues are struggling with is really identifying the 
metrics for success. So, we have got these--we are expending 
these resources, and we are trying to--it is difficult, I have 
to admit, to measure or count an attack that doesn't occur, 
right? If we are putting people out there and trying to reduce 
radicalization, you know, the strongest evidence is a lack of 
attacks, and that is, you know, that's a proven negative.
    But, Director Sleeper and Mr. Hughes, you have been out 
there, sort of law enforcement capacity, and we have talked 
about or heard a lot about trust today from a number of 
witnesses. There seems to be almost an organic friction between 
law enforcement coming in and investigating and a faith a 
mosque--any faith or a church for that matter in which 
constituents are coming there to practice their religion 
confidentially, and there is that trust between the imam and 
the Oma, just as there are, you know, in my faith there is a 
relationship, a confidential relationship between the priest 
and Catholics.
    So, I am struggling with how do we balance in a way--
balance our need to intervene here and at the same time do it 
in a respectful way that doesn't isolate some of these mosques? 
Because I have heard in various parts of my community, in the 
Muslim community that those who accept money, CVE money, are 
tainted. There is almost a collaborator label among some that 
say, oh, that mosque is accepting CVE money. They are 
cooperating with the FBI or with the Boston Police, and so for 
some, they get a black mark and are seen as less worthy. And 
others that refuse to take the CVE seek to take on this role of 
legitimacy in the Muslim community. How do we deal with that, 
Mr. Hughes?
    Mr. Hughes. I spent a lot of time, about 3-1/2 years, 
working for the National Counterterrorism Center on this exact 
issue and a lot of time actually in your district.
    Mr. Lynch. Yes.
    Mr. Hughes. And so my biggest takeaway from kind of 
traveling around the country and meeting with Muslim American 
community leaders throughout the country was you just got to be 
honest and talk about it in human stories. So instead of 128 
people have been arrested for terrorism charges, it's my name 
is Seamus Hughes, I'm a father, and I'm worried about these 
kids. And I tell the story of a young man from Minneapolis who 
disappears on election day and doesn't--and his mother's 
worried about him, goes to Somalia, realizes it's his bill of 
goods and is killed there for his doubts. And at some point in 
his radicalization he was reachable. My name is Seamus Hughes 
and I want to save that young kid because I never want to sit 
in a room like I used to in a basement of an apartment building 
talking to mothers of--grieving sons.
    And so if you frame the issue in terms of human aspect, I 
think you'd get a lot farther than you would. And I think you 
also need to have a bright line between counterterrorism 
operations and CVE efforts.
    So, my engagement with community partners I didn't share my 
notes with the local FBI office because I needed to let--build 
levels of trust, and that doesn't happen overnight. So, going 
to Boston every couple weeks, talking to folks, knowing who 
their kids are, where they play soccer, things like that, those 
things matter in order to actually build this level of trust. 
It's not just a one-and-done thing.
    Mr. Lynch. That is great.
    Director Sleeper?
    Mr. Sleeper. Thank you for the question, sir. I have been a 
police officer for four decades, the first three decades in 
State and local law enforcement. Outreach to communities is the 
cornerstone of law enforcement. It's the essence of how local 
government communicates with its citizens in order to prevent 
violence in the communities, all violence. It's an effort to 
prevent violence from happening, to encourage dialogue between 
families, community groups, religious organizations, and to 
open up dialogue so that if someone see something, if they're 
concerned about a friend or a family member that may be going 
in the wrong direction, that that's communicated and that 
violence is prevented. That's really what this program is about 
is preventing violence. The FBI looks at it from a very broad 
perspective of looking at all potential avenues of extremism 
and violence that may be dealt with in a community.
    We're very cognizant that all cities and communities are 
different, and it's the citizens of the community that are best 
to identify the level of engagement, the type of engagement, 
and allow them to dictate back to the law enforcement community 
what they need and what they would like in order to exchange 
and open up that dialogue, sir.
    Mr. Lynch. Thank you. So, it just so happens that Mr. 
Russell and I have spent a fair amount of time in refugee camps 
on the Syrian border, Syria and Turkey, Syria and Lebanon, 
Syria and Amman, Jordan, and on one of my visits we actually 
had an opportunity to bring in six of these so-called moderate 
rebel groups, the leaders of these groups. They came up out of 
Aleppo and met with us. And one of my conversations I asked 
each one of them as they came in separately, I said, how do you 
communicate? And they are all on WhatsApp, okay? So, not 
surprisingly, a lot of the radical content that we are seeing 
on our end here in the United States is also coming through 
WhatsApp. And I don't want to single them out. There are a few 
others.
    But one of the folks that I deal with on this issue, who is 
Dr. Nabeel Khudairi, he is the former chairperson of the 
Islamic Council of New England, he had a great quote. He said, 
``If we are going to do battle against extremists, we have to 
bring something in the same genre of the social media to 
balance a young person's opinion of what to do.'' So, what are 
we doing in terms of--and now, I am talking about the social 
media aspect of it that is oftentimes the point of contact 
between efforts of others to radicalize our sons and daughters 
here at home? What is the counterpoint that we are using to 
sort of push back on that? And has anything that you have been 
doing so far been successful, Mr. Sleeper or Mr. Hughes, I 
guess? Or Mr. Selim actually, yes.
    Mr. Sleeper. There's a number of areas, sir, that are being 
pursued. Some of those fall into the true counterterrorism 
effort in the sense of identifying and eliminating individuals 
that are responsible for creating and sending those messages. 
There's significant work that's being done with the private 
sector, and there's been significant success with the private 
sector recognizing that their applications are being leveraged 
by people, so there are successes there. And I know George is 
working a number of initiatives at a different level.
    Mr. Selim. Seamus, do you want to ----
    Mr. Hughes. Yes, if you don't mind. I interviewed an 
American ISIS supporter who spent about four months in ISIS 
last month, and he was using WhatsApp to communicate with other 
friends when he crossed the border. So, absolutely, the online 
environment does matter for these folks, and in many ways, it's 
a logistical support and a level of connectivity they wouldn't 
normally have.
    Mr. Lynch. Just to be clear, it is the level of encryption 
there that ----
    Mr. Hughes. It's ----
    Mr. Lynch.--allows that, right?
    Mr. Hughes. It's the debate that the FBI would talk about, 
the ----
    Mr. Lynch. And it is owned by Facebook, right?
    Mr. Hughes. I believe so, yes.
    Mr. Lynch. Yes.
    Mr. Hughes. So, in terms of what we're doing domestically, 
not a whole lot. So, we have a few programs. We have peer-to-
peer program which the U.S. Government and Facebook have 
stepped up in form and encouraged the university students to 
create counter-messaging. But I think there's a few low-hanging 
policy questions I think we can solve pretty quickly. One is 
community partners like the one you mentioned, giving them some 
level of a legal understanding of what's right and left 
latitudes online, so they're not crossing against material 
support to terrorism clauses if they're engaging with a would-
be jihadist, right, so letting them know what the latitudes 
are.
    The second one is informing them of how ISIS and other 
groups use the online environment. So, it's not Twitter 
anymore. It's largely concentrated on Telegram. And what do 
those channels look like and how do you get involved and what 
are the messages that are there? We're not doing enough of that 
type of work.
    And the last part, and I think Adnan would have a point to 
raise on this is, you know, the Federal Government's not really 
going to step up in this spot. It's uncomfortable there. It 
raises a whole host of kind of legal issues and the ability for 
the Federal Government to move and shift in the online space is 
very little, right? So, this is where foundations like Gen Next 
can step up. Other foundations, family foundations and things 
like that can say, okay, community partner in Boston who has a 
great idea, you need X amount of money. It's a small amount of 
funding. Let's try this out, and if it works, let's take it to 
L.A. or let's take it to Seattle and get the Federal Government 
out of this process and help kind of do that connective tissue.
    Mr. Lynch. Mr. Selim, Mr. Kifayat?
    Mr. Selim. Yes, thank you, Ranking Member Lynch, and please 
feel free to jump in on this. I guess I would only amplify and 
add one or two points from what my colleagues mentioned. In the 
past number of years that I've been working on this issue, I've 
seen a fair bit of progress from industry, from the technology 
companies, from the social media companies, from the internet 
service providers in this space. Next week, in northern 
California for the first time ever, a number of these companies 
are convening a forum to talk about this issue with Federal, 
State, and local officials. Facebook, Google, Twitter, and a 
whole host of others are convening officials. I think the 
public-private aspect of this that Mr. Hughes alluded to 
earlier is critical to two parts of the question that you 
asked. One is the content and the encryption--how do you remove 
it or take it down--but then there's another important part of 
that issue, which is how do you amplify other non-extremist 
content? How do you amplify the voices of individuals that are 
in refugee camps, American Muslims or other civic leaders in 
the United States to help drown out those voices that are 
online that are trying to recruit and radicalize? And I think a 
stronger partnership with industry on these issues can help 
address both those issues, and I think we need to do it sooner 
rather than later.
    Mr. Lynch. Right. Mr. Kifayat and Ms. Raza, if you have 
anything to add.
    Mr. Kifayat. Just to amplify one point, sir, the--there are 
huge conversations taking--huge tectonic plates of young--
Americans having conversations about culture and identity and 
what civilization means and talked about what religion means, 
and the problem we've seen online, social media, is that there 
is an ample amount of really bad information out there that 
tells you how to act and what adventure means and what a call 
to action means and what living in a community of nonbelievers 
means. And what we have been doing in our partnerships with the 
technology sector is to, as--to pick along what George said, is 
to drown those out, right, to relegate those to make them 
impotent online. And so we're putting out narratives that 
counter those concepts, counter those ideas at the nip so when 
they begin. And that, I think is where the future is if we are 
to save the internet and save the online space, sir.
    Mr. Lynch. Thank you. Ms. Raza?
    Ms. Raza. Thank you so much for having us here.
    The question of social media is extremely important, and 
our organization has been approached to create an alternate 
narrative. And with regards to the conversation that you had 
brought up before as well, NGOs, nongovernment organizations, 
need to be part of this movement and to create an alternate 
narrative on the internet, on social media so that it can drown 
out, as Mr. Kifayat said, the extremist voices.
    And one of the measures that we have looked upon, which has 
been very successful in terms of community relationships, and 
you had mentioned your concern, along with Mr. Russell, is to 
empower the Muslim communities themselves to take 
responsibility to bring about some of the change so it doesn't 
seem that it's just law enforcement or CVE or someone else who 
is telling them to.
    And the best example of that I can give you is what 
happened last week at a mosque in Davis, California, where the 
imam Ammar Shahin who is at the Islamic Center of Davis called 
for Muslims to fight the Jews and annihilate them. This was 
following the troubles at Temple Mount. And it was the Muslim 
communities that actually took upon this challenge and started 
an online petition to actually have him fired and hire another 
imam. And this is something new and different, which is what we 
need to focus on is while we want to counter violent extremism 
through government, we also want to do it from within the 
communities themselves.
    Mr. Lynch. That is great. Mr. Chairman, thank you for your 
extreme courtesy. I appreciate that. I yield back.
    Mr. Russell. [Presiding] And I thank the gentleman, the 
ranking member.
    We have certainly seen firsthand a lot of these issues as 
we have tried to address them. I am going to yield myself some 
time for questions here.
    I think that there is really a responsibility in messaging 
that goes just beyond the Islamic communities. I think it goes 
even nationwide with our media. For example, when you see a 
story reported about ISIS, the B-roll in the background is, you 
know, these people sneaking around with tennis shoes and AK's 
riding on tanks, you know, looking like they are some heroic 
figure rather than the barbarians that have committed 
atrocities that have not been seen since the Dark Ages. I think 
we bear some responsibility when our own media will not engage 
in the betrayal. If all you show is this positive, glorious 
image, then that can be extended through social media, and then 
we see a lot of those issues there.
    It is just a false characterization also of our military 
targeting where somehow the military, which our military is the 
most accurate and the most human-rights-conscious. When we have 
to unsheathe the sword, we try to make sure that it is accurate 
to the point of enormous expenditures to have our weaponry to 
be accurate so that we don't cause undue suffering. And yet the 
opponents, you know, don't abide by any of these rules, and 
then our media will somehow attack our country, our soldiers, 
our warriors instead of those that are sawing people's heads 
off, setting them on fire in cages causing untold human 
suffering, displacing hundreds of thousands and millions of 
people, leveling cities. Other than that, they are all pretty 
nice guys.
    What is interesting is that we have large Muslim 
communities in this country, and a lot of them have lived quite 
peacefully for decades. And, you know, I think of, you know, 
little Baghdad in San Diego. You know, not only do they 
contribute to the economy, not only have we seen very little 
radicalization from these areas--you know, I think of my own 
hometown in Oklahoma City. We have got folks that have come 
from both an Arab, Sunni Arab, Persian Shia background due to 
different things that have happened in the '50s, '60s, '70s, 
'80s, '90s, you know, 2000s, live quite peacefully in the 
community with very little radicalization.
    And then we get to other areas where we have just an 
outrageous proportionate level of radicalization. For example, 
Minnesota has produced 26 percent of young foreign fighters 
recruited in the United States, and more terrorist suspects 
charged in connection with ISIS than any other State besides 
New York, and when you compare the population of Minnesota and 
New York, well, my goodness, you know, you--and so I guess my 
question to you, Mr. Sleeper, would be why is Minnesota such a 
significant center of terrorist activity and recruitment?
    Mr. Sleeper. It's difficult for us to articulate the reason 
why that's happening, sir. Obviously, there's a large Somali 
population, 100,000-plus, in that ----
    Mr. Russell. There is a large Somali population in D.C. --
--
    Mr. Sleeper. Geographic ----
    Mr. Russell.--but we don't see a recruitment from that. I 
mean, there has got to be a reason. I mean, one thing I learned 
as a warrior, you know, fighting--I have lived in these 
cultures. I have gone to weddings, wakes, you know, done the 
land grab and the bulls, everything and have made great 
friends. But when you have enemies that percolate in an area, 
there is a reason. And so, you know, let's see if we can get 
some ideas to this. Mr. Hughes, you are raising your hand. I 
will come back to you, Mr. Sleeper.
    Mr. Hughes. Sure. Looking at the Minneapolis cases, I think 
we talked a lot about the online environment, this idea of 
online radicalization, online recruitment. Minneapolis is much 
more of a peer-to-peer recruitment. So, the reason why you had 
a number of guys try to join ISIS later is because their 
brother joined al-Shabaab a few years before that or their 
roommate before that. And there was--and there's a connectivity 
there that I don't think we fully understood. So, Abdi Nur goes 
over to Syria and then FaceTimes with his buddies back in 
Minneapolis and says it's time to join the so-called caliphate. 
So, that human interaction actually matters quite a bit. It's 
the reason why Minneapolis had a higher number with a very--
with a large Somali population and Lewiston, Maine, or San 
Diego doesn't. That peer-to-peer network does matter.
    Mr. Russell. And, Mr. Sleeper, what would be the profile of 
these terrorist suspects or recruits that are coming out of 
Minnesota, you know, to speak to what Mr. Hughes is--what would 
that profile look like?
    Mr. Sleeper. There really is no profile. We spent a 
tremendous amount of time, research, and analysis looking into 
individuals that are becoming radicalized so that we can get 
ahead of the curve, behaviors, indicators ----
    Mr. Russell. But, see, we got to do better than that. And 
look, you know, when I was thrust in combat environments, you 
know, one of the first things I said is three questions: What 
does the enemy look like? How can he hurt us? And how can we 
hurt him? Now, we have the most incredible, phenomenal 
intelligence services in the United States. We have millions of 
Muslim Americans that are willing to help and serve their 
country. How do I know? Because I served with quite a few of 
them. So just to say, well, we can't identify what they look 
like, we can't make a profile, you really think that is true? I 
mean, you represent the Federal Bureau of Investigation. I 
mean, boy, if that is true--because if we can't identify the 
problem, we can never solve it.
    Mr. Sleeper. It is difficult to identify any commonality --
--
    Mr. Russell. Life's tough, but it is tough if we don't 
identify the problem. I mean, so, help me out here. What ----
    Mr. Sleeper. So, if you look at the number of 
investigations we have open right now, several hundred 
investigations in this country right now, I'd say the FBI is 
very effective at identifying individuals that articulate a 
desire and we determine there's predicated information that 
they're prepared to act on it.
    Mr. Russell. And to your point ----
    Mr. Sleeper. Prior to that, it's a very difficult process 
to do in consideration with First Amendment rights, freedom of 
speech.
    Mr. Russell. Sure. And to your point on the good job that 
the FBI does, I don't want you to think I'm picking on you; I 
have great respect for the Bureau. And ISIS self-turned air 
traffic controller just caught two weeks ago, charged, indicted 
in Honolulu, I mean, imagine the destruction and damage he 
could have done if our Bureau had not been Johnny-on-the-spot. 
And so, you know, we do appreciate the work that our military 
and the Bureau does every day.
    But I refuse to accept that we can't identify a profile. 
Anyone else want to take on what that might--Mr. Selim?
    Mr. Selim. Sir, if I may just add one note to this. Part of 
the group of folks who work for me is there are a group of 
folks dedicated to working with the latest and greatest, both 
analytical and social science community on this. Going back to 
your earlier question on why--in Minneapolis, why is the spike 
so high, what a number of studies and what a lot of research 
has shown is that individuals who come to this country that 
have a higher exposure to violence from wherever they came from 
may possess a higher propensity to radicalization and 
recruitment.
    Mr. Russell. But, gosh, do you think that is true when you 
look at like what happened with Beirut? We have had a lot of 
people come from Lebanon, and we have not seen this problem. We 
have had civil wars and destruction of all kinds of things 
before where we see a migration of population and we don't see 
radicalization. So, do you get my point?
    Mr. Selim. I do. I think it's just--it's one of the factors 
that we've seen particularly differentiating in the Twin Cities 
with some of the Somali community attacks that we've seen in 
Ohio and other places. It's one of the factors, in addition to 
a whole host of others.
    Mr. Russell. Okay. Thank you. And I am consuming some time 
here, and I have some very patient colleagues I have great 
respect for. And I will come back on some other things, but I 
want now to recognize Ms. Demings from Florida.
    Mrs. Demings. Thank you so much, Mr. Chairman, and believe 
me, this topic, this conversation deserves all of the time 
necessary because it is a very important issue. I want to thank 
our witnesses for being here, thank our ranking member as well, 
Mr. Lynch.
    The FBI has confirmed that there are active ISIS-related 
investigations in all 50 States. To date, 26 States and the 
District of Columbia have had at least one charge with offenses 
related to the Islamic State within their borders.
    So, Mr. Selim, I would like to start with you. What is the 
Trump administration's justification for proposing that the CVE 
grant funds be eliminated? And what would the impact be if 
those funds are eliminated?
    Mr. Selim. Ma'am, thank you for that question. I can answer 
it a few different ways. The first is that the program that we 
recently announced, these awards that we announced in June, 
this is a--that award was not a one-year award. That award was 
a two-year award. So, that $10 million in awards that we've 
administered will last for fiscal year 2018 and fiscal year 
2019, and we're about to start that period of performance and 
that cycle now.
    So, I'm aware that the presidential budget request did not 
reflect the CVE grant program in fiscal year 2018. However, 
there's--it's not that there's zero dollars being spent in '18; 
it's that this is a two-year period of performance in which I'm 
very confident, as the director of the office and the program 
manager here, that we'll be able to demonstrate a high degree 
of excellence on these 26 awardees. And hopefully, by fiscal 
year 2019, we'll be able to have the best practices and lessons 
learned to be able to make the case to the Congress for more 
funds in this area.
    Mrs. Demings. Do you agree--and I would also like to hear 
from Director Sleeper as well on this. Do you agree with the 
GAO that the Federal Government does not have a cohesive 
strategy or process for assessing the overall CVE effort? And 
we will start with you, Mr. Selim?
    Mr. Selim. So, I am aware of the GAO response on that 
issue, and there is a DHS response to the GAO report, which, if 
the committee allows, I'd be happy to submit that for the 
record as well.
    Mr. Selim. I do not agree with that view that there is no 
measurement and evaluation of any of the programs.
    Specifically on the CVE grant program, we have robust 
measurement put in place for all 26 of the grantees, both 
qualitative and quantitative. To give you an example of some of 
the qualitative measure that we're looking at, in the CVE grant 
program, there are five focus areas overall. So one of the 
questions that the committee and you may be wondering is how do 
you measure the ability to do training on countering violent 
extremism or radicalization and recruitment? And we're really 
looking at a number of different factors. When we're looking at 
training the space, we're looking at both the number and type 
of people being trained. Are they State and local law 
enforcement professionals, are they civic leaders, are they 
spiritual leaders, and so on?
    And we're also conducting pre- and post-survey assessments 
on the level of knowledge acquisition. Historically, in any law 
enforcement or military training, the nature and scope of the 
training, the level of knowledge acquisition that's attained, 
so we're taking into consideration a very broad swath of data 
that we'll be collecting, and we'll use that to implement and 
hone our own training in the Federal Government moving forward.
    Mrs. Demings. Director Sleeper?
    Mr. Sleeper. This is an incredibly complicated issue. We're 
not the only country dealing with it. Virtually every Western 
country is currently wrestling with this. We can always be 
better, coordinate more effectively. We need to if we expect to 
meet the challenges facing us.
    Mrs. Demings. And I have to agree with our chairman's 
statement earlier that we do have to do better. This is an 
ever-critical issue. Do you agree that the evaluation process 
that is in place is adequate?
    Mr. Sleeper. I have not actually reviewed the report, 
ma'am.
    Mrs. Demings. Okay. All right. Thank you, Mr. Chairman. I 
yield back.
    Mr. Russell. Very efficient on your time. I thank the 
gentlelady.
    And I would like to recognize the gentleman from Vermont, 
Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman.
    I just want to acknowledge the presence of Kerry Sleeper, 
who served, Mr. Chairman, as our commissioner of public safety 
in Vermont, and we are pretty proud of him.
    And I want to ask you, Director, in your new job one of the 
things you did so well in Vermont was walk this tightrope that 
I think folks in law enforcement have to walk between being 
all-in, very aggressive, very vigilant to protect our safety on 
the one hand and also create positive relationships with the 
community, whose support you need in order to effectively do 
your job. And I would think that in this mission that all of 
you now are engaged in of countering violent extremism, that 
community support continues to be important, but the threat 
probably that you are all dealing with is even greater than 
what you have faced on a day-to-day basis when you were the 
commission of public safety.
    Congress tends, I think, to focus understandably on the 
potential violence that we want to give you the tools to 
control, but, as you did in your job in Vermont, you also 
displayed some ability to see the importance of maintaining 
that community support that is intentioned sometimes with 
aggressive actions that have to be taken to contain violence. 
And I wonder if you could just speak a little bit about that 
and how the FBI managed that.
    Mr. Sleeper. I believe the FBI does an outstanding job, 
sir, at reaching out to communities, particularly communities 
at risk. The communities most at risk are those that need the 
most outreach and communication. We see all across our country 
right now a number of cities that are struggling with 
relationships between their police departments and their 
communities, and violence is resulting as a consequence of 
that.
    This specific threat that we're discussing today requires 
that the FBI and the communities engage in dialogue with very 
specific segments of those communities, and the threat requires 
that there be open, trusted dialogue. The members of those 
communities recognize the first most fundamental role of the 
FBI is to protect the citizens of this country and to uphold 
the law. There's no doubt about that. That's the tough part. 
The fair part is that we engage in dialogue with those 
communities so they understand why we need to enforce those 
laws, why we need to protect those communities.
    And if we think particularly of the Somali community 
members who are leaving Minneapolis, they're going to fight in 
a far-distant war. The vast majority of them are going to come 
home in a body bag. So what we're trying to do is protect those 
people, communicate. And as most of the Americans that have 
traveled to fight for ISIS, they will eventually end up in a 
body bag, so we're trying to communicate to their friends and 
families that there's consequences to this type of behavior. 
That's the type of dialogue and communication that we want to 
have with those communities so they understand clearly our role 
and the likely consequences of their actions.
    Mr. Welch. When we have that kind of trust, does it also 
lead to you being able to get actionable information?
    Mr. Sleeper. It is, and again, we are seeing in the 
communities where we engage the communities do respond and 
recognize--we have been thanked by parents of children who we 
caught before they traveled for saving their children's lives, 
and that's the message and the dialogue that we want to put out 
there that we're about not only protecting the communities and 
the citizens but the individuals themselves that are making 
decisions regarding travel. But there is no doubt we are here 
to investigate and to uphold ----
    Mr. Welch. Right.
    Mr. Sleeper.--the safety of the citizens of the United 
States first and foremost.
    Mr. Welch. Yes. Well, I really appreciate that.
    Mr. Chairman, you probably--in your own work serving our 
country probably had similar tension between the need to use 
force in appropriate circumstances but try to get the trust of 
the folks in the country where you were serving, a hard job.
    Well, I thank you. Thank you, Director.
    Mr. Russell. And I thank the gentleman, and I would agree 
with those comments and associate with Mr. Sleeper's earlier 
comments that community type of interaction is essential. One 
of the things that made it even harder is when you are not even 
from the country, you don't have the language, you are 
automatically hated, you are occupying the territory, and you 
are trying to earn trust. But guess what? It can be done, even 
those tall-order things. And we are not facing that. Although 
maybe in reverse as they come back we see some of those factors 
play in.
    And I would like us, before we close, a couple of 
additional questions if I may to Mr. Sleeper. You had made 
mention that there is a number of open investigations earlier 
in your comments. About how many is that?
    Mr. Sleeper. We've publicly acknowledged in several 
environments that there's over 1,000 open investigations across 
the country right now. I can't be specific, but there's over 
1,000.
    Mr. Russell. Okay. Thank you for that. And how many 
individuals approximately have left the United States to fight 
for ISIS or other associated terror groups like al-Shabaab, et 
cetera?
    Mr. Sleeper. I don't have that number readily available, 
but we can ensure that you're provided with that.
    Mr. Russell. Sure. And if we have to provide it in a secure 
setting, you know, we can also arrange that. And can you get 
with us so that we can nail that down?
    Mr. Sleeper. Yes, sir.
    Mr. Russell. Thank you for that, sir.
    And then to Mr. Selim, you know, this morphing grants and, 
you know, we are going to add this many, we are going to 
subtract this many, and all of that, can we get full, complete 
without redaction examples of what those grants are and their 
parameters? Is that possible to provide to the committee?
    Mr. Selim. Mr. Chairman, I believe so. Currently, just to 
give you an accurate sense of where it is, I believe in a full 
and high degree of transparency with this and any other of our 
overseers, the stack of paper that we're looking at that's 
currently underneath review with our general counsel and so on 
is over 500 pages. And we're looking to make sure that there's 
no PII and whatnot, and that's the type of redaction. In 
addition to supplying that information on the grant 
applications to this committee, we want to make as much of that 
as publicly available and transparent as possible ----
    Mr. Russell. Sure.
    Mr. Selim.--so I'm committed ----
    Mr. Russell. Personal ----
    Mr. Selim.--to doing so. I need to circle back with our 
counsel and just ensure what the parameters of delivering that 
to the committee are.
    Mr. Russell. Yes, personal identifiers, Socials, like that, 
I don't think--let me check with my legal counsel. I don't 
think that that is an issue, but we don't want, you know, oh, 
you know, here are the two sentences on page 1, so ----
    Mr. Selim. No, I can assure you we're not looking to reduce 
any of the substance but just the appropriate things for 
scoring and so on.
    Mr. Russell. Okay. And I appreciate that. And then I thank 
the committee today not only for the broad bipartisan concern 
and interest but, you know, for the excellent witnesses on both 
sides. And I want to thank the ranking member for his tireless 
work on national security. You know, not only have we developed 
a friendship; we have traveled large portions of the globe 
together.
    And I also want to thank all of you today that have come 
before us. And I know it wasn't a convenience to, oh, sure, you 
know, let me--but I really appreciate the work that you do and 
the unique perspective that you provide, and I hope that we can 
work with you more in the future.
    And with that, I would like to thank all of our witnesses 
that are before us today.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:14 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
